HHS/OIG, Audit -"Northeastern University DHHS Grant Costs,"(A-01-03-01502)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Northeastern University DHHS Grant Costs," (A-01-03-01502)
April 16, 2004
Complete Text of Report is available in PDF format (409 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of our review of grant no.5 R29 EY09712-05 awarded to Northeastern
University (the University) by the National Institutes of Health, National Eye Institute.  Our objective was to determine
whether costs claimed for reimbursement by the University represented allowable, allocable and reasonable costs under the
terms of Department of Health and Human Services grants.  We identified $61,215 in unsupported or incorrectly charged
salaries and related fringe benefits and indirect costs that did not meet Federal regulations.  We recommended that
the University improve controls to ensure that procedures are followed for reporting and claiming actual percentage of
work effort, improve procedures for maintaining supporting documents, and refund $61,215 in overstated costs.